;

No. 20In THE

Supreme Court of % Mmtzb States

AHMED ALI MUTHANA,
Petitioner,
v.
ANTONY J. BLINKEN, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the District of Columbia

PETITION FOR A WRIT OF CERTIORARI
Christina A. Jump*
Alyssa F. Morrison
Constitutional Law Center
for Muslims in America
100 North Central Expressway, Suite 1010
Richardson, TX 75080
(972) 914-2507
cjump@clcma.org
Counsel for Petitioner
* Counsel of Record
304724

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859

HECEIVED

JUN 2 1 2021

1 ms&Mw [

I

QUESTION PRESENTED FOR REVIEW
Petitioner served as a diplomat from October 1990 until
June 1994; his position officially terminated no later than
September 1994. His daughter Hoda Muthana was born in
New Jersey in late October 1994. In 2004, Petitioner applied
for a U.S. passport on her behalf. The State Department
requested proof that his diplomatic position ended prior to
her birth. Petitioner provided an official letter certifying
that he was recognized as a diplomat and subject to
accompanying immunities from 1990 until no later than
September 1,1994. Satisfied, the State Department issued
her passport and recognized her as a U.S. citizen. Ms.
Muthana renewed her passport without issue in 2014, then
traveled to Syria into ISIS-controlled territory.
In 2016, the State Department sent a letter revoking
Ms. Muthana’s passport, claiming she was not a U.S.
citizen. During litigation the government produced a
new official letter, tailored to assert that Petitioner’s
diplomatic immunity continued until February 1995, when
the State Department purportedly received notice of that
termination. Both lower courts accepted the government’s
assertion. Both courts also treated the 2019 letter as
conclusive, giving no weight to the equally credible 2004
letter despite no new facts arising. Ms. Muthana lost
her previously recognized citizenship status without due
process of law, rendering her and her young son stateless.
The question presented is:
Is the U.S. State Department’s certification of an
individual’s diplomatic status reasonably considered
conclusive and unreviewable evidence, even where it
conflicts with the Department’s own prior certification
for the same individual, and creates legal inconsistency as
to the validity of previously recognized U.S. citizenship?

\

n
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Ahmed Ali Muthana was the Plaintiff in the
District Court and the Appellant in the Court of Appeals.
Respondents Michael Pompeo, in his official capacity as
Secretary of the Department of State; Donald J. Trump,
in his official capacity as President of the United States;
and William Pelham Barr, in his capacity as Attorney
General,1 were the Defendants in the District Court and
the Appellees in the Circuit Court of Appeals for the
District of Columbia Circuit.

1. Antony J. Blinken, in his official capacity as Secretary
of the Department of State, Joseph R. Biden, Jr., in his official
capacity as President of the United States, and Merrick Garland,
in his official capacity as Attorney General of the United States
are currently in the respective positions and have therefore been
substituted pursuant to Federal Rule of Civil Procedure 25(d).

m

RELATED CASES
There are no related cases other than the opinions
identified below in this matter:
The District Court decision of Muthana v. Pompeo,
et al, No. l:19-cv-00445, United States District Court of
District of Columbia, was entered on December 17, 2019.
The Circuit Court of Appeals for the District of
Columbia Circuit issued its decision in Muthana v.
Pompeo, et al., No. 19-5362, on January 19, 2021.

IV

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW
PARTIES TO THE PROCEEDINGS BELOW

1
11

RELATED CASES

111

TABLE OF CONTENTS

IV

TABLE OF APPENDICES

vi

TABLE OF CITED AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS AND ORDERS BELOW

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

4

I.

INTRODUCTION

4

II. FACTUAL AND REGULATORY
BACKGROUND......................................

4

III. LOWER COURT PROCEEDINGS

9

<

V

Table of Contents
Page
REASONS FOR GRANTING THE WRIT
I.

13

The State Department’s Discordant
Positions on Diplomatic Immunity Have
Resulted in Inconsistent Rulings.............

15

A. Under the VCDR, there are multiple
reasonable interpretations of when
diplomatic immunity ends................

16

B. The Executive tookinconsistentpositions
with respect to Petitioner’s diplomatic
status, despite no new evidence.......

.20

II. The D.C. Circuit’s Decision is Wrong.......

21

III. This Case Raises Exceptionally Important
Questions.................................. .............

27

IV. This Case Presents an Ideal Vehicle to Resolve
the Question Presented......... ..................

31

CONCLUSION

32

\
\

m
TABLE OF APPENDICES
Page
APPENDIX A
OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA
CIRCUIT, FILED JANUARY 19,2021 ...........

la

APPENDIX B — REDACTED OPINION OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA,
FILED DECEMBER 17,2019........................

,38a

vn
TABLE OF CITED AUTHORITIES
Page
Supreme Court Cases
Abbott v. Veasey
137 S. Ct. 612 (2017)

32

In re Baiz
135 U.S. 403 (1890)

22,23

Klaprott v. United States
335 U.S. 601 (1949)...

,28

Kwok Jan Fat v. White
253 U.S. 454 (1920)

29

Maslenjak v. United States
137 S. Ct. 1918 (2017)...

30

Mitsugi Nishikawa v. Dulles
356 U.S. 129 (1958)...........

.29

Trop v. Dulles,
356 U.S. 86 (1958)

,28

Sumitomo Shoji Am., Inc. v. Avagliano
457U.S. 176 (1982) ..........................

15

United States v. Wong Kim Ark
169 U.S. 649 (1898).............

6

(

mil

Cited Authorities
Page
Circuit Court Cases
Abdulaziz v. Metro. Dade Cnty.
741 F.2d 1328 (11th Cir. 1984)

(

22

Carrera v. Carrera
174 F.2d 496 (D.C. Cir. 1949)

.23

Iceland S.S. Co. v. U.S. Dep’t of the Army
201 F.3d 451 (D.C. Cir. 2000).............

15

New York v. EPA
443 F.3d 880 (D.C. Cir. 2006)

17

Pielage v. McConnell
516 F.3d 1282 (11th Cir. 2008)

17

Swarna v. Al-Awadi
622 F.3d 123 (2d Cir. 2010)

19

United States v. Al-Hamdi
356 F.3d 564 (4th Cir. 2004)

15

District Court Cases
Baoanan v. Baja

627 F. Supp. 2d 155 (S.D.N.Y. 2009)
Chevron Chem. Co. v. United States
59 F. Supp. 2d 1361 (Ct. Int’l Trade 1999)

v

19,26
17

IX

Cited Authorities
Page
Gordon Cos. v. Fed. Express Corp.
2016 U.S. Dist. LEXIS 120205
(W.D.N.Y. Sept. 2,2016)...........

17

Swarna v. Al-Awadi
607 F. Supp. 509 (S.D.N.Y. 2009)

19

United States v. Guinand
688 F. Supp. 774 (D.D.C. 1988)

18

United States v. Kayser-Roth Corp.
103 F. Supp. 2d 74 (D.R.1.2000).

17

United States v. Sharaf
183 F. Supp. 3d 45 (D.D.C. 2016)

18

United States v. Wen
2005 U.S. Dist. LEXIS 19545
(E.D. Wis. Aug. 24,2005)

19

Vulcan Iron Works, Inc. v.
Polish Am. Mach. Corp.
479 F. Supp. 1060 (S.D.N.Y. 1979)

16

Statutes
28 U.S.C. § 1254(1)

1

22 U.S.C. § 2705

3

X

Cited Authorities
Page
Regulations
22 C.F.R. § 51.2

3,5

22 C.F.R. § 51.60

3

22 C.F.R. § 51.61

3

22 C.F.R. § 51.62

3,7

Rules
Fed. R. Civ. P. 12(b)(6)

11

Treatises
Vienna Convention on Diplomatic Relations
art.39, Apr. 18,1961,23 U.S.T. 3227 ......

2,8,19

Vienna Convention on Diplomatic Relations
art.43, Apr. 18,1961,23 U.S.T. 3227 .......... 2,8,16,17
Constitutional Provisions
U.S. Const, amend. XIV

,4,5

r

xi

Cited Authorities
Page
Secondary Source
AILA Doc. No. 18072705, Featured Issue:
Denaturalization Efforts by USCIS, Am.
Immigr. Lawyers Ass’n (Sept. 04,2020), https://
www.aila.org/advo-media/issues/all/featuredissue-denaturalization-efforts-by-uscis...........

30

BBC News, https://www.bbc.com/news/
explainers-53428191 Who is Shamima
Begum and how do you lose your UK
citizenship? BBC News, (Mar. 2,2021)........... .

13

Diplomatic and Consular Immunity: Guidance
for Law Enforcement and Judicial Authorities,
United States Department of State, Office
of Foreign Missions (Aug. 2018) https://www.
state.gov/wp-content/uploads/2019/07/2018DipConImm_v5_Web.pdf...............................

20

Felicia Sonmez & Michael Brice-Saddler,
Trump says Alabama woman who joined
ISIS will not be allowed back into U.S.,
Wash. Post (Feb. 20,2019,6:43 PM)...............

10

Inter-Alia, Black’s Law Dictionary
(11th Ed., 2019)...............................................

17

Jack Weinstein & Margaret Berger, Weinstein’s
Federal Evidence § 1004.02[1] (2d ed. 2006)....... 22

XU

Cited Authorities
Page
Rick Noack, Trump urged Europe to take
back its ISIS fighters. He appears less
keen on taking back those from the U.S.,
Wash. Post, (Feb. 21,2019,7:55 A.M.).............

13

Ronald Reagan, 1988 Republican National
Convention, quoting John Adams, Argument
in Defense ofthe British Soldiers in the Boston
Massacre Trials, Dec.4,1770 (“Facts are stubborn
things; and whatever may be our wishes, our
inclinations, or the dictates of our passions, they
cannot alter the state of facts and evidence”)....... 32
Stephen M. Shapiro et al., Supreme Court
Practice § 4-51 (11th ed. 2019)........................

30

Statement on Hoda Muthana, Global Public
Affairs, U.S. Department of State, Press
Release (Feb. 20, 2019), https://20172021-translations.state.gov/2019/02/20/
statement-on-hoda-muthana/index.html.........

9

Today Show, https://www.today.com/video/
mike-pompeo-on-hoda-muthana-she-isnot-a-us-citizen-1446009923715. NBC
television broadcast (Feb. 21,2019)................

10
)

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Ahmed Ali Muthana respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the District of
Columbia Circuit.
OPINIONS AND ORDERS BELOW
The January 19, 2021 opinion and order of the U.S.
Court of Appeals for the District of Columbia Circuit
affirming the D.C. District Court’s November 15, 2019
grant of summary judgment in favor of Respondents
is reported at Muthana v. Pompeo, 985 F.3d 893 (D.C.
Cir. 2021). Pet. App. la-38a. The District Court opinion
is available at Muthana v. Pompeo, No. 19-445 (RBW),
2019 U.S. Dist. LEXIS 218098 (D.D.C. Dec. 9,2019). Pet.
App. 38a-75a.
STATEMENT OF JURISDICTION
The U.S. Court of Appeals for the District of Columbia
Circuit entered its judgment on January 19, 2021. On
March 19, 2020, this Court extended the deadline to
petition for a writ of certiorari to 150 days from the
date of the lower court judgment. Petitioner timely filed
this Petition on June 16, 2021, within 150 days of that
judgment. The jurisdiction of this Court is proper under
28 U.S.C. § 1254(1).

2

RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
TREATY PROVISIONS
Articles 39 and 43 of the Vienna Convention on Diplomatic
Relations state in pertinent part:
Article 39
l.Every person entitled to privileges and immunities
shall enjoy them from the moment he enters the territory
of the receiving State on proceeding to take up his post
or, if already in its territory, from the moment when his
appointment is notified to the Ministry for Foreign Affairs
or such other ministry as may be agreed.
2.When the functions of a person enjoying privileges and
immunities have come to an end, such privileges and
immunities shall normally cease at the moment when he
leaves the country, or on expiry of a reasonable period in
which to do so, but shall subsist until that time, even in
case of armed conflict.
Article 43
The function of a diplomatic agent comes to an end, inter
alia:
(a) On notification by the sending State to the
receiving State that the function of the diplomatic
agent has come to an end;

3

STATUTORY PROVISIONS
22 CFR § 51.2, Passport issued to nationals only, states
in pertinent part:
A passport may be issued only to a U.S. national.
22 CFR § 51.62 Revocation or limitation of passports and
cancellation of Consular Reports of Birth Abroad,
states in pertinent part:
(a) The Department may revoke or limit a passport when:
(1) The bearer of the passport may be denied a
passport under 22 CFR 51.60 or 51.61 or any
other applicable provision contained in this part;
(2) The passport was illegally, fraudulently or
erroneously obtained from the Department; or
was created through illegality or fraud practiced
upon the Department; or
22 U.S.C. § 2705, Documentation of citizenship states in
pertinent part:
The following documents shall have the same force and
effect as proof of United States citizenship as certificates
of naturalization or of citizenship issued by the Attorney
General or by a court having naturalization jurisdiction:
(1) A passport, during its period of validity (if such
period is the maximum period authorized by law),
issued by the Secretary of State to a citizen of
the United States.

4
CONSTITUTIONAL PROVISIONS
The Fourteenth Amendment to the U.S. Constitution
states in pertinent part that “[a]ll persons born or
naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and
the State wherein they reside.”
STATEMENT OF THE CASE
I.

INTRODUCTION

Hoda Muthana (“Ms. Muthana”) grew up as a U.S.
citizen. She was born here, attended and graduated school
here, and began her first year of college here. For the
first 20 years of her life, Ms. Muthana was a recognized
United States citizen, by both her own understanding and
official government certification, with all the privileges
and rights that accompany that status. With evidence of
neither fraud nor misrepresentation, the United States
government now erases those 20 years and asserts without
offering any new evidence that she is not and never has
been a U.S. citizen. The government has afforded her no
due process of law in making this change.
II. FACTUAL AND REGULATORY BACKGROUND
Petitioner Ahmed Ali Muthana (“Petitioner”) officially
served as the First Secretary of the Permanent Mission
of Yemen to the United Nations from October 1990 until
June 2,1994.1 That June, following the Yemeni civil war,
1. Declaration of Ahmed Ali Muthana, Doc. 25-1, Exhibit
A at HI 4-7.

5
the Yemeni Ambassador Al-Aashtal required him to
surrender his diplomatic identity card and terminated
his diplomatic position.2 Nearly five months later, in
late October 1994, Petitioner’s youngest daughter Hoda
Muthana was born in Hackensack, New Jersey.3 In 2004,
when Ms. Muthana was ten years old, her father applied
for a U.S. passport on her behalf.4
Under the Fourteenth Amendment to the U.S.
Constitution, all persons born on U.S. soil automatically
acquire citizenship at the time of their birth. U.S. Const.
amend. XIV, § 1. An exception to this rule exists for
children born to individuals holding diplomatic immunity at
the time of their births. These children are not considered
to be born “subject to the jurisdiction of the U.S.[,]” and
therefore do not automatically acquire citizenship. The
Secretary of State is only empowered to issue passports
to U.S. nationals. 22 C.F.R. § 51.2. Accordingly, upon
receipt of Petitioner’s passport application, the State
Department requested confirmation of Ms. Muthana’s
eligibility for a U.S. passport to clarify the timing of
2. Id. at IN 5-7.
3. Birth Certificate of Hoda Muthana, Doc. 1-4.
4. Doc. 25-1 at 1f 12. Around this time, Petitioner initiated
proceedings for his older children to become lawful permanent
residents (and later citizens) of the United States. All of Petitioner’s
children, as well as Petitioner and his wife, are now U.S. citizens.
Reasonably relying on the U.S. government’s recognition of Ms.
Muthana as a citizen, Petitioner did not initiate those proceedings
on her behalf. Had such recognition not occurred, Ms. Muthana
would have become a citizen alongside her siblings. However,
because of the government’s actions with respect to her status,
she had neither need nor opportunity to do so.

6

her father’s diplomatic service.5 In response, Petitioner
provided the government with a certification from the
U.S. Mission to the U.N., signed by Russell F. Graham,
the then-Minister Counselor for Host Country Affairs,
which was addressed to the Bureau of Immigration and
Citizenship Services (the “Graham Letter”). The Graham
Letter certified that Petitioner was “notified to the United
States Mission as a diplomatic member ... from October
15, 1990 to September 1, 1994[,]” and specified that
“[djuring this period of time, [Petitioner] was recognized
by the United States Department of State as entitled to
full diplomatic privileges and immunities.”6 Satisfied, the
State Department issued Ms. Muthana the requested
passport in January 2005, listing her nationality as
“United States.”7 She renewed this passport without issue
in 2014. Once duly issued, a passport constitutes proof that
the United States has certified an individual’s status as a
citizen. 22 U.S.C. § 2705; see also United States v. Wong
Kim Ark, 169 U.S. 649, 693 (1898).
In November 2014, Ms. Muthana traveled to Syria
via Turkey, and into ISIS-controlled territory.8 While in
Syria, Ms. Muthana gave birth to her son, Minor John Doe.9
Thereafter, in January 2016, the State Department sent a
letter to her parents’ residence revoking Ms. Muthana’s
5. Id. at f 12.
6. Graham Letter, Doc. 1-5.
7. Passport of Hoda Muthana, Doc. 25-1, Exhibit 1 to
Exhibit A, at 58.
8. Doc. 25-1, Exhibit A at If 19-20.
9. Id. at f 21.

7

passport under 22 C.F.R. § 51.62, on the grounds that it
had been issued in error.10 The State Department now
took the position that Ms. Muthana never had been a U.S.
citizen. The State Department agreed that its records
showed that Petitioner’s diplomatic position ended no
later than September 1,1994. However, the government
asserted for the first time that Petitioner actuallycontinued to hold immunity until February 6, 1995, the
date that the State Department purportedly received
notification of his termination through the Department’s
communications with the U.N. Office of Protocol.11 The
State Department now claimed that this notification, not
termination of duties or end of position, constituted the
sole relevant trigger for the end of diplomatic immunity.12
The government did not offer any new evidence that had
come to light in the intervening years, or point to a change
in law that explained the reversal in its official 2004
stance on Petitioner’s status that followed his daughter’s
departure from the country.

'i

The terms, functions and rights of diplomats, including
the provision of diplomatic immunity, are controlled by the
Vienna Convention on Diplomatic Relations (“VCDR”).
The provisions relevant to Ms. Muthana’s status as a U.S.
10. January 15,2016 Letter from the State Department, Doc.
1-6. 22 C.F.R. § 51.62 describes the circumstances under which
the State Department may revoke or limit a passport. In relevant
part, it permits revocation where the passport was “erroneously
obtained” from the Department.
11. Declaration of James B. Donovan, Doc. 19-2 (describing
the State Department’s procedures with respect to incoming and
outgoing diplomats).
12. Doc. 1-6.

8

citizen and relied upon by the State Department are found
in Articles 39 and 43. Article 39 states, in relevant part,
that “[w]hen the functions of a person enjoying privileges
and immunities have come to an end, such privileges
and immunities shall normally cease” when the diplomat
leaves the country or after a “reasonable period in which
to do so, but shall subsist until that time.” 23 U.S.T. 3227,
art. 39. Article 43 in turn provides that “the function of
a diplomatic agent comes to an end/ inter alia: (a) [o]n
notification by the sending State to the receiving State
that the function of the diplomatic agent has come to an
end.” 23 U.S.T. 3227, art. 43 (emphasis added).
The State Department newly asserted in 2016 that
Petitioner still held diplomatic immunity until February
1995, the time that it purportedly received notification
of Petitioner’s termination by way of relying on the
publication date of the Blue List. Therefore, Ms. Muthana
was not born subject to the jurisdiction of the United
States after all.13 The State Department does not dispute
that it had all the same evidence before it in 2004, when
it came to the opposite conclusion; the Agency instead
relied exclusively and without further explanation on
its conclusory assertion that the previous determination
was simply an error. The State Department revoked Ms.
Muthana’s passport document through the letter sent to
her parents’ home, but maintained that she is not entitled
to the due process that would necessarily accompany an
alteration in citizenship status because it determined in
hindsight that she simply never held that status. With the
sending of a single administrative letter, Ms. Muthana lost
her status as a citizen and was rendered stateless, along
13. Doc. 1-6.

9
with her young son; the contrast between the ease with
which the State Department effectuated this change and
the severity of its consequences for Ms. Muthana is stark.
III. LOWER COURT PROCEEDINGS
Ms. Muthana, at the time unaware that her citizenship
might even be in question, contacted her father in 2018
and informed him of her deep regret for her actions
and her intention to escape ISIS-controlled territory
with her son and surrender to American forces.14 When
Petitioner’s counsel communicated this information to the
U.S. Attorney for the Northern District of Alabama, the
State Department abruptly ended discussions. The State
Department instead announced on its website that “Ms.
Hoda Muthana is not a [United States] citizen and will not
be admitted to the United Statesf;] [s]he does not have any
legal basis, no valid [United States] passport, no right to
a passport, nor any visa to travel to the United States.”15
That same day, then-President Trump tweeted that “I
have instructed Secretary of State Mike Pompeo, and
he fully agrees, not to allow Hoda Muthana back into the
14. Doc. 25-1, Exhibit A at 1HI 31-32. Ms. Muthana has
repeatedly communicated to Petitioner and Petitioner’s counsel
her willingness to face any charges that the U.S. justice system
may find appropriate once she returns to the U.S. She has also
indicated her desire to use her own first-hand experience as a
resource to expose the deceptive tactics that are used to convince
people to join radical groups, in the hopes of dissuading others
who may consider doing so.
15. Press Release, Statement on Hoda Muthana, Global
Public Affairs, U.S. Dep’t of State (Feb. 20, 2019), https://20172021-translations.state.gov/2019/02/20/statement-on-hodamuthana/index.html.

10
Country!”16 And, Secretary Pompeo reiterated his beliefs
on the Today Show, proclaiming that “she is a terrorist.
She is not a United States citizen. She ought not return
to this country.”17
Petitioner then filed suit in the U.S. District Court
for the District of Columbia as next friend on behalf of
his daughter and minor grandson, asserting in relevant
part that the State Department erroneously revoked Ms.
Muthana’s citizenship without any due process of law.18
The State Department responded that it had merely
revoked a travel document, not any status itself, and had
therefore satisfied all due process requirements.19 With
its Response, the State Department submitted a 2019
letter signed by James B. Donovan, the current Minister
Counselor for Host Country Affairs (the same position held
by the individual who wrote the Graham Letter), newly
certifying that Mr. Muthana had diplomatic immunity at
16. Felicia Sonmez & Michael Brice-Saddler, Trump says
Alabama woman who joined ISIS will not be allowed back
into U.S., Wash. Post (Feb. 20, 2019, 6:43 PM), https://www.
washingtonpost.com/politics/trump-says-alabama-woman-whojoined-isis-will-not-be-allowed-back-into-us/2019/02/20/64be9b483556-lle9-a400-e481bf264fdc_story.html; Donald Trump (@
realdonaldtrump), Twitter (Feb. 20, 2019) http://twitter.com/
realdonaldtrump/status/1098327855145062411?s=21. (due to
former President Trump’s suspension from Twitter’s platform, a
direct link to his tweet is no longer available).
17. Today Show, https://www.today.com/video/mike-pompeoon-hoda-muthana-she-is-not-a-us-citizen-1446009923715. NBC
television broadcast (Feb. 21, 2019).
18. See generally Doc. 1.
19. Doc. 19 at 16-31.

11
the time of Ms. Muthana’s birth (the “Donovan Letter”),
because notification had purportedly not been received
until later.20 The District Court approved the government’s
position, and then went a step further and announced that
Ms. Muthana is not and never has been a U.S. citizen, and
that the State Department reasonably interpreted the
VCDR to reach its new position that diplomatic immunity
ceases exclusively upon receipt of notification.21 The
District Court next held that the tailored and litigationproduced Donovan Letter constituted conclusive proof
that Petitioner still had diplomatic immunity on the day
Ms. Muthana was born, and that the Court therefore
could not consider the earlier Graham Letter or any other
contradictory evidence.22
On appeal, the D.C. Circuit Court acknowledged
that the deprivation of American citizenship without due
process of law is a judicially cognizable injury in fact.23
However, the three-judge Circuit Court panel affirmed that
Ms. Muthana is not a citizen, with one Judge concurring.24
As did the District Court, the Circuit Court accepted the
position that receipt of notification was the sole trigger
point for the end of diplomatic immunity under the VCDR,
20. Donovan Letter, Doc. 19-3.
21. Pet. App. at 67a (“the Court is compelled to conclude that
Ms. Muthana is not a United States citizen by virtue of having
been born in the United States”) (internal quotations omitted).
22. Id. at 59a (“The Court finds it appropriate to convert
the defendants’ Rule 12(b)(6) motion to dismiss ... into a Rule 56
motion for summary judgment”).
23. Id. at 10a.
24. Id. at 2a.

12
and that the State Department’s most recent certification
deserved conclusive deference. The lower courts failed
to properly recognize the significance of the fact that in
Petitioner’s case, there are two internally contradictory
certifications regarding Petitioner’s diplomatic status (the
Graham Letter and the Donovan Letter), both of which
speak to the duration of his diplomatic immunity.25 The
Circuit Court instead resolved this conflict by seemingly
creating a new rule, one that the government itself didn’t
even argue for, that the second letter was the only true
certification because it had been produced in litigation,
and therefore deserved conclusive deference.26 The Circuit
Court therefore held that it was required to accept the
government’s reversal of its own previous finding as to
Ms. Muthana’s citizenship status.
To date, no proceedings to rescind or revoke Ms.
Muthana’s citizenship have ever occurred. The State
Department instead maintains that it has only revoked the
passport document based on its revised determination of
Ms. Muthana’s diplomatic status at the time of her birth.
Although the government’s pleadings never asserted the
right to administratively revoke or rescind Ms. Muthana’s
citizenship status, the lower courts nonetheless did exactly
that. These holdings render Ms. Muthana and her young
son stateless in a Kurdish detention camp, where they
remain today.27
25. Id. at20a-26a.
26. Id. at 34a-35a.
27. This Petition comes at a time of significant international
conversation and concern regarding the repatriation of individuals
accused of leaving their home countries to join ISIS and the
approaches that different countries may take under their

13
REASONS FOR GRANTING THE WRIT

:

United States birthright citizenship, as guaranteed
by the Fourteenth Amendment, stands as one of our
most precious and protected traditions. It can neither
be wielded as a weapon for punishment, nor taken away
without highly specific and extreme circumstances which
do not exist here. The holdings in this case threaten to
erode these important principles, which are deeply rooted
in our jurisprudence.
\

As discussed above, the U.S. State Department
inquired into Petitioner’s diplomatic status in 2004 for the
express purpose of determining whether his immunity
ended before his daughter’s birth. Upon receipt of the
Graham Letter, an official State Department certification
that Petitioner’s diplomatic immunity ended well prior
respective laws. Thousands of women and children remain in
Kurdish run detention camps in Syria, unsure of their paths
forward. Earlier in 2021, the U.K. made the controversial decision
to strip Shamima Begum, a young woman who traveled to join
ISIS at 15 and has often been discussed alongside Ms. Muthana,
of her British citizenship and disallow her from returning to the
U.K. See Who is Shamima Begum and how do you lose your UK
citizenship?, BBC News (Mar. 2, 2021), https://www.bbc.com/
news/explainers-53428191. As countries around the world make
decisions about how to handle the developing situation, the United
States has urged other countries to repatriate their citizens, and
prosecute them as appropriate, rather than leaving them in legal
limbo in detention camps indefinitely. See Rick Noack, Trump
urged Europe to take back its ISIS fighters. He appears less keen
on taking back those from the U.S., Wash. Post (Feb. 21, 2019,
7:55 A.M.). https://www.washingtonpost.com/world/2019/02/21/
trump-urged-europe-take-back-its-isis-fighters-he-appears-lesskeen-taking-back-ones-who-came-us/.

14
to Ms. Muthana’s birth, the State Department issued
her a passport and recognized her as a U.S. citizen.
The matter was settled. Ms. Muthana grew up as an
American child and teenager. All other older siblings and
both of her parents became citizens. She had no need to
apply for citizenship, because the U.S. government has
acknowledged her birthright citizenship.
The State Department did not revisit the question of
her citizenship until after she left the country and traveled
to Syria. Only then did the State Department newly
assert that Ms. Muthana never possessed U.S. citizenship
after all because, although all agree that Petitioner was
terminated from his position prior to his daughter’s
birth in New Jersey, the State Department now claims it
did not receive notification of his termination until after
her birth. Despite the obvious political implications of
the timing of the State Department’s actions, the lower
courts wholly deferred to this new position and held that
receipt of notification alone controls the end of diplomatic
immunity. These holdings contradict and exacerbate the
already inconsistent authority on the subject of diplomatic
immunity, created in large part by repeated court
deference to contradictory government positions.
The decisions in this case create a roadmap where
even in the absence of any intervening change in fact or
law, the State Department may alter a person’s citizenship
status and overrule its own previous certification by
merely penning a newer certification, even in response
to litigation brought to prevent this outcome. Here, this
results in the statelessness of Ms. Muthana and her
minor son; however, this kind of unreviewable executive
authority reaches beyond just these two people.

15
I.

The State Department’s Discordant Positions
on Diplomatic Immunity Have Resulted in
Inconsistent Rulings

This Court holds that while “the meaning attributed
to treaty provisions by the Government agencies charged
with their negotiation and enforcement is entitled to great
weighty” those interpretations are “not conclusive.”
Sumitomo Shoji Am., Inc. v. Avagliano, 457 U.S. 176,
183 (1982). With respect to the VCDR, the Executive’s
certification as to an individual’s diplomatic status warrants
judicial deference where it is based on a reasonable
interpretation of the relevant treaty. See United States v.
Al-Hamdi, 356 F.3d 564, 573 (4th Cir. 2004) (“[W]e hold
that the State Department’s certification, which is based
upon a reasonable interpretation of the Vienna Convention,
is conclusive evidence as to the diplomatic status of an
individual.”); see also Iceland S.S. Co. v. U.S Dep’t of the
Army, 201 F.3d 451, 458 (D.C. Cir. 2000) (“[WJhere an
agency has ‘wide latitude in interpreting the [Treaty’s
memorandum of understanding], ... we will defer to its
reasonable interpretation’”). Because of the expansive
deference generally afforded the State Department’s
determinations on diplomatic status, courts typically
accept the Executive’s certification and rule consistent
with that certification. However, where the Executive
takes inconsistent litigation positions, this deference
results in inconsistent law.
The lower courts in this case uniformly accepted and
affirmed the State Department’s position that diplomatic
immunity ceases solely and exclusively upon receipt of

16
notification from the sending State to the receiving State.28
This narrowed interpretation of the VCDR directly
conflicts with the plain language of its relevant provisions,
the government’s varied previous positions as accepted
and implemented by federal courts throughout the
country, the State Department’s own publicized guidance
on the end of diplomatic immunity, and the government’s
prior certification as to Petitioner specifically.
As to matters of diplomacy, the “State Department’s
views are instructive, since it is the agency most intimately
involved with procedures under the Vienna Convention[;]”
however, “it is the court’s function to interpret the law[,]”
not the agency. Vulcan Iron Works, Inc. v. Polish Am.
Mach. Corp., 479 F. Supp. 1060,1065 (S.D.N.Y. 1979). The
lower courts’ rulings here deepen the already ambiguous
law relating to the issue of when diplomatic immunity
prevents application of the Fourteenth Amendment, one of
great importance to individuals, law enforcement and the
government itself. This ambiguity merits clarification and
uniformity. Ms. Muthana’s case presents a compelling set
of circumstances through which this Court can provide it.
A. Under the VCDR, there are multiple reasonable
interpretations of when diplomatic immunity
ends
The protections of diplomatic immunity are coextensive
with the time period during which an individual is
performing diplomatic functions. Article 43 of the VCDR
states that “the function of a diplomatic agent comes to
an end, inter alia: (a) on notification by the sending State
28. Pet. App. at 20a, 62a-64a.

17
to the receiving State that the function of the diplomatic
agent has come to an end.”29 In interpreting the text of a
treaty, courts look to the plain language of the document
and construe it “so that no words are treated as being
meaningless, redundant, or mere surplusage.” Pielage v.
McConnell, 516 F.3d 1282,1288 (11th Cir. 2008); see also
New York v. EPA, 443 F.3d 880,885 (2006) (explaining that
when interpreting legislation, courts are directed to “give
effect to each word”). The term “inter alia” means “among
other things.” Inter-Alia, Black’s Law Dictionary (11th
ed. 2019). By its very definition it is “a term of inclusion
and not a term of limitation ... it connotes an illustrative
example rather than an exhaustive list.” United States v.
Kayser-Roth Corp., 103 F. Supp. 2d 74, 85 (D.R.I. 2000);
see also Chevron Chem. Co. v. United States, 59 F. Supp.
2d 1361, 1367 (1999) (finding that “by itself, the term
‘inter alia’ demonstrates” that a list was not intended
to be exhaustive); see also Gordon Cos. v. Fed. Express
Corp., No. 14-CV-00868-RJA-JJM, 2016 U.S. Dist. LEXIS
120205, at *3-4 (W.D.N.Y. Sept. 2, 2016) (finding that
where an agreement included the phrase “inter alia,”
meaning “among other things”, the parties’ allegation was
“not limited to the specific examples listed”). The D.C.
District and Circuit courts in this matter, however, both
adhered to a narrow rule that the language of Article 43
can only mean “that diplomatic functions continue until
notification of termination to the host country.”30 The plain
language of the provision and the prior conduct of the
29. 23 U.S.T. 3227, art 43.
30. Pet. App. at 20a. The VCDR in its entirety is riddled with
qualifying language like “normally”, “reasonably” and “inter alia”,
that counter the idea that the treaty was meant to be read rigidly
or narrowly 23 U.S.T. 3227, arts., 39(2); (3).

18
State Department demonstrate that there are actually
multiple reasonable interpretations of when diplomatic
immunity ends under the VCDR.
Decisions out of the Second, Seventh and D.C. Circuits
accept and implement the government’s position that
termination of duties, rather than receipt of notification,
serves as the determinative trigger point for the end of
diplomatic immunity. In United States v. Guinand, the
D.C. District Court explained that the U.S. government
has “consistently interpreted Article 39 of the VCDR”
to allow U.S. jurisdiction over individuals once their
“status as members of the diplomatic mission has been
terminated.” 688 F. Supp. 774, 775 (D.D.C. 1988). The
government in Guinand also pointed the court to “an
official State Department publication intended to provide
guidelines to law enforcement authorities on ... privileges
and immunities ... [that] states, in pertinent part, as
follows: criminal immunity expires upon the termination
of the diplomatic or consular tour of the individual enjoying
such immunity, including a reasonable period of time for
such person to depart the U.S. Territory.” Id; see also
United States v. Sharaf, 183 F. Supp. 3d 45, 50 (D.D.C.
2016) (accepting the State Department’s submission of a
letter certifying that, based on Article 39 of the VCDR,
the Defendant did not possess diplomatic immunity at the
time of the criminal act, because her “duties terminated
effective December 9, 2014” and “[u]pon termination of
duties, it is the practice of the United States government
to accord 30 days as the reasonable period for a member
of the mission to depart the United States”). The conflict
of law deepened by the D.C. Circuit’s newly crafted rule
in this case conflicts with holdings from within its own
Circuit, the home circuit of the U.S. government.

19
Courts in the Second and Seventh Circuits have
similarly looked to the termination of duties date for
guidance. In Swarna v. Al-Awadi, the court described
how “diplomats lose much of their immunity following
the termination of their diplomatic status.” 622 F.3d
123,133-44 (2d Cir. 2010); see also Swarna v. Al-Awadi,
607 F. Supp. 509, 517 (S.D.N.Y. 2009) (stating that “the
purpose of immunizing a diplomatic agent’s private
acts is to ensure the efficient functioning of a diplomatic
mission, not to benefit the private individual, and this
purpose terminates when the individual ceases to be a
diplomatic agent”) (emphasis added); see also Baoanan
v. Baja, 627 F. Supp. 2d 155 (S.D.N.Y. 2009) (wherein
the U.S. government filed a Statement of Interest on the
scope of Article 39(2) and the “Government directed] the
Court to the government’s Declaration... submitted to the
court in [Guinand], for the proposition that ‘the United
States Government has consistently interpreted Article
39 of the VCDR to permit the exercise of U.S. jurisdiction
over persons whose status as members of the diplomatic
mission has been terminated for acts they committed
during this period in which they enjoyed privileges and
immunities’”). As discussed in greater detail infra, in
Baoanan, the government submitted and the Court
accepted another “Graham Letter” which uses identical
language to describe the dates during which the individual
held diplomatic immunity as exists in Ms. Muthana’s
2004 Graham Letter.31 In United States v. Wen, the
court accepted the government’s argument in its motion
to dismiss that, based on Article 39 of the VCDR, “[i]n
31. Exhibit 2 to Defs.’ Reply to PL’s Mem. of Law in Supp.
of Diplomatic Immunity (Corrected Copy), Baoanan v. Baja, 627
F. Supp. 2d 155 (S.D.N.Y. 2009) (No. 08-cv-5692), ECF No. 25-2.

20

the instant case, Wen’s consular status was terminated
on March 4,1992. After that time, his criminal immunity
ceased to exist.” No. 04-CR-241,2005 U.S. Dist. LEXIS
19545, at *4 (E.D. Wis. Aug. 24, 2005). In so holding, the
court relied upon the government’s certification that “the
motion to dismiss should be denied on the merits because
any protection of diplomatic immunity that applied to Wen
necessarily terminated on March 16,1992, the date that
Wen’s term as a Consular ended ... this position is based
on the premise that... Wen could not have acted in official
capacity while no longer a Consular.” Id.
The lower courts’ holdings that receipt of notification
is the sole determining factor also conflict with the State
Department’s own existing published guidance on the
subject, as provided for the benefit of law enforcement and
judicial authorities. In the State Department’s publication
on “Diplomatic and Consular Immunity,” the government
explains under the heading “termination of immunity”
that immunity “expires upon termination of the diplomatic
or consular tour of the individual enjoying immunityU”
making no mention of any need for receipt of notification
by the host state.32
B. The Executive took inconsistent positions with
respect to Petitioner’s diplomatic status,
despite no new evidence
Finally, the interpretation of the VCDR now urged by
the State Department and accepted by the courts below
32. Diplomatic and Consular Immunity: Guidance for Law
Enforcement and Judicial Authorities, U.S. Dep’t. of State,
Office of Foreign Missions (Aug. 2018) https://www.state.gov/
wp-content/uploads/2019/07/2018-DipConImm_v5_Web.pdf.

21
does not comport with the Executive’s earlier treatment of
Petitioner. As noted above, no new evidence or intervening
change in law came to light that calls into question the
veracity of Petitioner’s termination date, the date of Ms.
Muthana’s birth, or the authenticity or purpose of the
Graham Letter. In 2004, the State Department applied
the exact same VCDR provision that it does today, to the
exact same set of facts, and the official in the exact same
position certified that Petitioner’s diplomatic immunity
ended before his daughter’s birth. In 2016, the Department
abruptly reversed course.
The State Department’s certification of a person’s
diplomatic status enjoys significant deference for a reason:
based on the information available to it, the Department
is in the superior position to make the most accurate
determination. Surely then, the State Department’s
contemporaneous certification in 2004 is entitled to as
much, if not more, deference as the government asks be
given to its post hoc reversal of that earlier position. The
politicized nature of Ms. Muthana’s actions cannot enter
into this legal calculus.
II. The D.C. Circuit’s Decision is Wrong
The lower courts disposed of Petitioner’s claims based
on two key findings: 1) receipt of notification constitutes
the exclusive date upon which diplomatic immunity ends;
and 2) the Donovan Letter, procured during litigation
in 2019, served as “conclusive evidence” of Petitioner’s
diplomatic status, foreclosing any further judicial inquiry.
The lower courts then ruled that Ms. Muthana is not now
and never was a U.S. citizen, despite the years during
which the U.S. government afforded her that status. The
law cited in the Circuit Court’s Opinion does not support

22

those conclusions. The Circuit Court inappropriately failed
to properly consider the extraordinary relevance of the
Graham Letter. This error is particularly significant here
because it results in the statelessness of both Ms. Muthana
and her minor son.
This Court has held that “the certificate of the
Secretary of State ... is the best evidence to prove the
diplomatic character of a person.” In re Baiz, 135 U.S.
403, 421 (1890) (emphasis added); see also Abdulaziz
v. Metro. Dade Cnty., 741 F.2d 1328, 1329 (11th Cir.
1984) (noting that “courts have generally accepted as
conclusive the views of the State Department as to the
fact of diplomatic status”) (emphasis added). As noted in
Weinstein’s Federal Evidence, “the best evidence rule is
one of preferences, not absolute exclusion.” Jack Weinstein
& Margaret Berger, Weinstein’s Federal Evidence §
1004.02[1] (2d ed. 2006). However, the Circuit Court did
not afford the 2019 Donovan Letter mere substantial
weight or “best evidence” status; it revered the Donovan
Letter as “dispositive and conclusive evidence” which
was “beyond judicial scrutiny[,]” therefore requiring
deference to the exclusion of all other evidence, no matter
how authoritative.33 The law neither requires nor supports
this result.
Relying on In re Baiz, the Circuit Court opined that
“courts have afforded conclusive weight to the Executive’s
determination of an individual’s diplomatic status.”34135
U.S. at 432 (noting that courts may not “sit in judgment
upon the decision of the executive in reference to the public
33. Pet. App. at 20a.
34. Id. at 21a.

23

character of a person claiming to be a foreign minister”).
The Circuit Court similarly relied upon Carrera v.
Carrera for the proposition that the D.C. Circuit has
“explained that the Executive’s certification of immunity
is entitled to conclusive weight when it is ‘transmitted to
the district judge’ by the State Department. ”’35 174 F.2d
496, 497 (D.C. Cir. 1949). The Circuit Court concluded
that the 2019 Donovan Letter served as conclusive proof
of Petitioner’s status at the time of Ms. Muthana’s birth,
and that it was therefore foreclosed from examining any
other evidence.
The facts of the cases discussed above, however, do not
square with those presented by Petitioner. This Court in
In re Baiz rejected that petitioner’s claim of immunity on
the grounds that he was unable to present any credible
State Department certification at all. In so holding,
this Court merely explained that the Executive, rather
than the judiciary, sits in the best position to determine
diplomatic status. The D.C. Circuit reinforced this holding
in Carrera in the context of a request that the State
Department certify an individual’s status, finding that “it
is enough that an ambassador has requested immunity,
that the State Department has recognized that the person
for whom it was requested is entitled to it, and that the
Department’s recognition has been communicated to the
Court.” Carrera, 174 F.2d at 497. Carrera, In re Baiz
and cases following these holdings certainly stand for
the generally well-established proposition that the State
Department’s certification regarding diplomatic status,
and therefore diplomatic immunity, is entitled to a great
deal of deference. Neither case, however, presented a
35. Id. at 23a.

24
circumstance where a court was asked to examine not
one, but two separate and contradictory State Department
certifications, both produced for the identical purpose of
establishing a petitioner’s diplomatic status, and both
bearing all indicia of authenticity. Nothing in the factual
or legal analysis of any case cited by the government or
the lower courts addresses two internally contradictory
certifications and mandates deference to the most recent
document.
There are two State Department certifications here.
Both speak to Petitioner’s diplomatic status at the time
of his daughter’s birth. The first, the Graham Letter,
was produced in 2004 in the context of Petitioner’s
passport application on behalf of Ms. Muthana. The
second, the Donovan Letter, was produced in 2019 during
litigation and tailored as purported support for the State
Department’s change in position on her citizenship. Both
letters were signed and certified by individuals in identical
positions. Throughout the duration of this litigation, the
government has not attempted to produce a single piece
of new evidence supporting its reversal; instead, there is
no apparent dispute that the State Department had all
of the same evidence and information before it in 2004 as
it does today.
As noted supra, the State Department enjoys
significant deference with respect to matters of diplomacy
precisely because it is in the best position to make
accurate determinations. The reasons justifying this
high level of deference therefore crumble when used
to discredit the accuracy of the Executive’s own prior
position as represented by the Graham Letter, in favor
of its secondary conclusion, with no intervening addition

25

of evidence. If the State Department’s certification is
dispositive evidence, then courts are surely obligated to
afford at least the same deference to the Graham Letter,
created prior to any political conversations involving
Ms. Muthana, as they did to the litigation-responsive
Donovan Letter. Neither lower court did so.,The Circuit
Court dismissed the Graham Letter as inconclusive on the
grounds that it “notes only two dates: [Petitioner’s] date of
appointment as a diplomat... and his date of termination^]
[t]he Graham Letter says nothing about when the United
States was notified of [Petitioner’s] termination and
therefore when his diplomatic immunity ended.” The
Graham Letter, however, explicitly provides the duration
during which Petitioner had diplomatic immunity:
[t]his is to certify that... our records indicate
that [Petitioner] was notified to the United
States Mission as a diplomatic member of the
Permanent Mission of Yemen to the United
Nations from October 15,1990 to September 1,
1994[;][d]uringthis period of time, [Petitioner]
... was entitled to full diplomatic privileges
and immunities in the territory of the U.S. 36
There is no other plausible explanation, nor has one
been offered, for why the Graham Letter would include
the dates that it did, and why the State Department
accepted those dates in 2004, except that they were
reliable indicia of Petitioner’s diplomatic status. Another
“Graham letter,” written by the same Mr. Graham during
his tenure, certified an individual’s diplomatic status in

36. Doc. 1-5 (emphasis added).

26

Baoanan v. Baja, 627 F. Supp. 2d 155 (S.D.N.Y. 2009).37
The Graham Letter in Baoanan used identical language
to describe the parameters of the individual’s immunity
as the Graham Letter in this case. The court in Baoanan
accepted that language. Assuming that the Graham
Letters involved here and in Baoanan are surely not the
only two in existence written by Mr. Graham, the Court
can reasonably conclude that the State Department has
previously accepted on countless occasions the language
that it now contests as insufficient. The Donovan Letter, by
contrast, speaks in explicit terms relating to notification
simply because it was created to fill a litigation need. This
made-to-order nature of the Donovan Letter does not
negate the non-litigation nature of the Graham Letter,
nor should it be reason to give the Graham Letter any less
credence.38 Not a single case cited by the Circuit Court
supports, let alone requires, its conclusion to the contrary.
The lower courts accepted the Donovan Letter as the
only evidence that mattered, noting “we must accept the
State Department’s formal certification to the Judiciary
as conclusive proof of the dates of diplomatic immunity. ”39
The Circuit Court then ruled outright that Ms. Muthana is
not and never was a citizen, despite competing Executive
evidence previously recognizing her to be one. “Without
37. Exhibit 2 to Defs.’ Reply to Pl.’s Mem. of Law in Supp.
of Diplomatic Immunity (Corrected Copy), Baoanan v. Baja, 627
F. Supp. 2d 155 (S.D.N.Y. 2009), (No. 08-cv-5692), ECF No. 25-2.
38. The Circuit Court described the Graham Letter as “a
document of unknown provenance”; however, the government
has never argued or implied that the origin or authenticity of the
Graham Letter is in question. Pet. App. 25a.
39. Id. at 24a.

27

saying so outright, the court appears to adopt a novel
rule,” one that the government itself did not even argue
for, that a State Department certification worthy of
deference “somehow only refers to a ‘formal certification
to the judiciary’ submitted in connection with litigation.”40
As further explained by Judge Tatel’s concurrence, this
legally flawed new rule would require the court to “credit
the Executive’s litigating position to the exclusion of all
other Executive evidence, no matter how authoritative. ”41
No rule of this nature is supported by this Court’s
precedent or the Constitution, and this kind of weighing
of evidence is wholly inappropriate for early dismissal of
any case.
III. This Case Raises Exceptionally Important
Questions
Diplomatic immunity, birthright citizenship, and
Executive authority each separately constitute issues of
exceptional national importance. These issues intersect in
the facts of this case. The duration of diplomatic immunity
is a recurrent question that will continue to arise in U.S.
courts in perpetuity, in both civil and criminal contexts.
Diplomatic immunity impacts law enforcement decisions,
40. Id. at 34a (Tatel, J., concurring).
41. Id. at 37a. This is in stark contrast to prior holdings in
other courts. See, e.g., Magnuson v. Baker, 911 F.2d 330,333 (9th
Cir. 1990), superseded by statute, 8 U.S.C. § 1504 (holding that
“[t]here is no power given to the [relevant government official] to
revoke [citizenship] merely because he or she has ‘second thoughts’
about the initial issuance... This limitation reflects the high value
of citizenship”) (negated on other grounds after the passage of
legislation allowing for revocation of passport documents by the
Secretary of State under certain circumstances).

28

the State Department, and the diplomats themselves.
The D.C. Circuit’s Opinion announces a dangerous new
rule that receipt of notification is the sole relevant date
to consider, and the most recent certification wins—even
if created in response to litigation. This holding conflicts
with other State Department guidance, the plain language
of the VCDR, the government’s positions in other cases,
and the government’s prior determination about Petitioner
himself. The government has a vested interest in clarity
on the question of what triggers the end of diplomatic
immunity, and to what extent the State Department may
exercise its own discretion in making this determination.
Although this case began with a dispute over
Petitioner’s diplomatic status, that issue does not stand
alone here. This case asks important questions regarding
the extent of the Executive’s unrestrained authority
to reverse its own prior positions and thereby alter an
individual’s status, and simultaneously shield that reversal
from both judicial review and the protections of due
process. These questions arise against the backdrop of
one of our most paramount and protected rights: United
States citizenship. Klaprott v. United States, 335 U.S.
601,616 (1949) (Rutledge, J., concurring) (finding that “to
take away a man’s citizenship deprives him of a right no
less precious than life or liberty”).
This Court has repeatedly affirmed the sacred value of
citizenship and the tradition that, in this country, we do not
use citizenship status as a weapon to punish bad behavior.
Trop v. Dulles, 356 U.S. 86,103 (1958) (“The deprivation of
citizenship is not a weapon that the government may use
to express its displeasure at a citizen’s conduct, however

29
reprehensible that conduct may be”).42 Nowhere is this
more true than with respect to birthright citizenship.
When an individual is born in the United States and
entitled to rights of citizenship, “neither the Congress,
nor the Executive, nor the Judiciary, nor all three in
concert” are capable of stripping away that right. Mitsugi
Nishikawa v. Dulles, 356 U.S. 129,138 (1958).
Generally, individuals born in the United States
are able to assume their citizenship, with formal
acknowledgement of that citizenship occurring later,
when they apply for a passport, register to vote, or claim
some other right reserved for U.S. nationals. However,
when proffered proof of citizenship like a passport is later
claimed to lack credibility, it can be difficult for individuals
to prove their status as birthright citizens precisely
because of the automatic nature of that citizenship. This
leaves birthright citizenship status particularly open to
political vulnerability. Here, the lower courts’ holdings
create a pathway by which the Executive can leverage
the deference afforded to it in matters of diplomacy to
alter an individual’s status under the guise of merely
revoking (or “rescinding”) a purportedly erroneously
granted document, thereby sidestepping or eroding the
due process protections afforded citizenship altogether.43
42. The Supreme Court once expressed its view that
citizenship is so paramount to our democracy that it was preferable
to have many immigrants “improperly admitted” to the U.S. than
it is to have even one proper citizen “permanently excluded from
his country.” Kwok Jan Fat v. White, 253 U.S. 454, 464 (1920).
43. Regardless of whether the courts emphasize the word
“revoke” or “rescind”, the simple fact remains that Ms. Muthana
had citizenship status and now she does not, though she received
no due process protections when it disappeared.

30

As discussed supra, the Circuit Court held that the most
recent certification constitutes “conclusive evidence” to
the exclusion of the Executive’s own prior certification,
even in the absence of any questions about the credibility
or authenticity of the first document. Permitting
this approach exposes Executive determinations,
particularly those relating to citizenship, to the dangers
of arbitrary or erroneous reversal at the whim of each
next administration.44 The government could pen a new
certification as it has done here, and in so doing “take
away on one day what it was required to give the day
before.” Maslenjak v. United States, 137 S. Ct. 1918,1921
(2017). With no more than a single administrative letter,
the State Department effectively erased the prior yearslong recognition of Ms. Muthana as a citizen, with all
accompanying rights and privileges. Our liberties are only
as strong as the procedures that safeguard them, and by
“so unmooring the revocation of citizenship from its award,
the Government opens the door to a world of disquieting
consequences.” Id.; see also Stephen M. Shapiro et al.,
Supreme Court Practice § 4-51 (11th ed. 2019) (noting that
the Supreme Court may “be motivated by a feeling that
the decision represents a gross miscarriage of justice or a
subtle erosion of a statutory or legal principle or that the
44. Although the facts of Ms. Muthana’s case may be
unique, the framework is not. Denaturalization and the revocation
of citizenship documents that are later claimed to be issued
in error have increased substantially in recent years. In the
summer of 2018, USCIS announced its intent to create an office
specifically to investigate the files of naturalized citizens for
denaturalization potential. AILA Doc. No. 18072705, Featured
Issue: Denaturalization Efforts by USCIS, Am. Immigr. Lawyers
Ass’n (Sept. 04,2020), https://www.aila.org/advo-media/issues/all/
featured-issue-denaturalization-efforts-by-uscis.

31
result reached below is unduly harsh in its impact”). This
cannot have been Congress’s intent. The justice system is
well-equipped to determine what, if any, punishment may
reasonably apply to Ms. Muthana’s actions; statelessness
cannot be among them.
IV. This Case Presents an Ideal Vehicle to Resolve the
Question Presented
Petitioner’s case presents an ideal vehicle for review
of the question presented here. The Circuit Court’s
holding creates dangerously broad rules of law capable
and deserving immediate review. Although the question
presented involves complex issues relating to diplomatic
immunity, deference to the Executive and U.S. citizenship,
the issue presented is capable of full resolution by an Order
from this Court.
Both parties agree on nearly all lingering questions of
pure fact. Petitioner’s diplomatic duties and position ended
prior to Ms. Muthana’s birth; the Graham Letter exists
to address the duration of Petitioner’s term of immunity;
official acknowledgement of Ms. Muthana’s status as a
citizen previously occurred; and no new facts came to
light which would support the State Department’s change
of position between the drafting of the Graham Letter
and the Donovan Letter. Although the facts of this case
are unique, the issues are not; no factual disputes remain
which could erode the force and effect of a potential ruling
from this Court.
The lower courts’ opinions are on all fours with one
another and unambiguous in their holdings, providing this
Court with a clear blueprint for review. No interlocutory

32

determinations remain unresolved, nor are there any
issues pending on remand. Cf. Abbott v. Veasey, 138 S.
Ct. 612, 613 (2017) (denying review where the case was
interlocutory, remedial issues remained, and there was an
overlapping unresolved claim). Both lower courts strictly
adhered to the idea that under the VCDR, the sole trigger
for the end of diplomatic immunity is receipt of notification
by the host state. The lower courts further subjected the
dueling Graham and Donovan certifications to inequal
treatment, giving the Donovan Letter conclusive weight
while failing to afford the Graham letter any legally
significance weight. Both courts disposed of all issues in
their entirety.
CONCLUSION
Hard facts can make bad law. But “facts are stubborn
things.”45 This Court serves in the function as guardian
to prevent bad rulings made in reaction to difficult facts,
like the ones present here. Petitioner turns to this Court
to rule not with emotion or motive, but based on supported
and just principles of law and policy.
For the foregoing reasons, Petitioner Ahmed Ali
Muthana, as next friend of Hoda Muthana and Minor John
Doe, respectfully requests that this Court issue a writ of
certiorari to review the judgment of the Court of Appeals
for the District of Columbia Circuit, which affirmed the
holding of the District Court for the District of Columbia.
45. Ronald Reagan, 1988 Republican National Convention,
quoting John Adams, Argument in Defense ofthe British Soldiers in
the Boston Massacre Trials, Dec. 4,1770 (“Facts are stubborn things;
and whatever may be our wishes, our inclinations, or the dictates
of our passions, they cannot alter the state of facts and evidence”).

33
Respectfully submitted,
Christina A. Jump*
Alyssa F. Morrison
Constitutional Law Center
for Muslims in America
100 North Central Expressway,
Suite 1010
Richardson, TX 75080
(972) 914-2507
cjump@clcma.org
Counsel for Petitioner
* Counsel of Record

